eS
I

C@QCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-979

PANKAJKUMAR 5S. PATEL, et al.,
Petitioners,
Vv.

MERRICK B. GARLAND, ATTORNEY GENERAL,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
AMERICAN IMMIGRATION COUNCIL, THE BRONX DEFENDERS, THE CATHOLIC
LEGAL IMMIGRATION NETWORK, INC., THE NATIONAL IMMIGRATION LAW CENTER,
THE NATIONAL IMMIGRATION PROJECT OF THE NATIONAL LAWYERS GUILD, AND
THE SOUTHERN POVERTY LAW CENTER AS AMICI CURIAE IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 6820 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

rete Aone 0. Yona? Ondhao- tl. Chile

Affiant

Notary Public

41282
